1

No. 20-787
IN THE

Supreme Court of the United States
PRESERVE RESPONSIBLE SHORELINE
MANAGEMENT, et al,

Petitioners,
v.
CITY OF BAINBRIDGE ISLAND, et al,

Respondents.
On Petition for Writ of Certiorari to
the Washington Court of Appeals
CERTIFICATE OF COMPLIANCE WITH WORD LIMITATION

In accordance with Supreme Court Rule 33.1(h), the undersigned
certifies that the Opposition to Petition for Writ of Certiorari complies with
the applicable word limit set forth in Rule 33.1(g): Exclusive of the exempted
portions identified in Rule 33.1(d), the brief contains 5,707 words.
(Consistent with Rule 33.1(d), the undersigned is relying on the word count
utility in Microsoft Word (Microsoft 365), the word processing program used
to prepare the brief.)

2

DATED: January 8, 2021.
/s/ W. Scott Snyder
W. Scott Snyder
Counsel of Record
James E. Haney
Aaron P. Riensche
Ogden Murphy Wallace, P.L.L.C.
901 Fifth Avenue, Suite 3500
Seattle, WA 98164
(206) 447-7000
ssnyder@omwlaw.com

Attorneys for Respondent City of
Bainbridge Island

{APR2345971.DOCX;1/13023.150007/ }

